U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 30, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

El Paso County, Texas, et al. v. Donald J. Trump,
President of United States, et al., S.Ct. No. 20-298

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 2,
2020, and placed on the docket on September 8, 2020. The government’s response is due on
October 8, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 9, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-0298
EL PASO COUNTY, TX., ET AL.
DONALD J. TRUMP, PRESIDENT OF U.S., ET AL.

ANTON METLITSKY
O'MELVENY & MYERS LLP
TIMES SQUARE TOWER
7 TIMES SQUARE
NEW YORK, NY 10030
212-326-2000
AMETLITSKY@MM.COM

